Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


 NORWALK HOSPITAL DID NOT
   COMPLY WITH MEDICARE
 INPATIENT REHABILITATION
  FACILITY DOCUMENTATION
       REQUIREMENTS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                      February 2013
                                                      A-01-11-00531
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

An inpatient rehabilitation facility (IRF) provides rehabilitation for patients who require a
hospital level of care to improve their ability to function. Effective for discharges on or after
January 1, 2010, documentation requirements specified in 42 CFR § 412.622(a)(4) and (5) must
be met to ensure that the IRF care is reasonable and necessary under the Social Security Act,
§ 1862(a)(1)(A). These requirements state that the patient’s medical record at the IRF must
include (1) a comprehensive preadmission screening, (2) a postadmission rehabilitation
physician evaluation, and (3) an individualized overall plan of care developed by a rehabilitation
physician. The documentation must also demonstrate that the patient requires an
interdisciplinary team approach to care, as evidenced by weekly interdisciplinary team meetings
led by a rehabilitation physician.

The documentation requirements ensure that the IRF coverage requirements specified in 42 CFR
§ 412.622(a)(3) are met. The coverage requirements specify that at the time of admission, the
IRF must have a reasonable expectation that the patient needs multiple intensive therapies,
including physical or occupational therapy; is able to actively participate and demonstrate
measurable functional improvement; and requires supervision by a rehabilitation physician to
assess the patient and modify the course of treatment as needed to maximize the benefit from the
rehabilitation process.

Norwalk Hospital (the Hospital) is a 328-bed not-for-profit acute care community teaching
hospital located in Norwalk, Connecticut, that operates a 25-bed IRF unit. Based on the Centers
for Medicare & Medicaid Services’ (CMS) National Claims History data, Medicare paid the
Hospital $8,136,686 for 325 IRF claims for services provided to beneficiaries during calendar
year 2010. Our audit covered these 325 claims.

OBJECTIVE

Our objective was to determine whether the Hospital billed IRF claims that complied with
Medicare documentation requirements.

SUMMARY OF FINDINGS

For 98 of the 100 claims that we sampled, the Hospital billed IRF claims that did not comply
with Medicare documentation requirements. Specifically, for these 98 claims, the Hospital’s
medical records did not include sufficient documentation to support any of the following
required elements:

   •   documentation that a comprehensive preadmission screening occurred within the
       48 hours immediately preceding the admission,

   •   documentation that a rehabilitation physician performed a postadmission evaluation
       within the first 24 hours of the IRF admission,

                                                 i
   •   documentation that a rehabilitation physician developed and documented an
       individualized overall plan of care within 4 days of the IRF admission, and

   •   documentation that interdisciplinary team meetings met all Federal requirements.

The Hospital’s procedures did not ensure that IRF services were documented according to
Medicare requirements.

The Hospital improperly received $2,738,379 in Medicare payments associated with 98 of the
100 claims that we sampled. Based on our sample results, we estimate that Medicare overpaid
the Hospital an additional $5,236,378 for the 225 IRF claims that were not included in our
sample.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare program $2,738,379 for 98 IRF claims in our sample that did not
       comply with Medicare requirements;

   •   work with CMS to resolve the 225 IRF claims that were not included in our sample, with
       potential overpayments estimated at $5,236,378;

   •   identify IRF claims in subsequent years that did not meet Medicare documentation
       requirements and refund any associated overpayments; and

   •   develop and implement procedures to ensure that it bills Medicare only for IRF services
       that comply with Medicare documentation requirements.

NORWALK HOSPITAL COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Hospital agreed with our fourth recommendation
and described steps that it has taken to review and improve the IRF unit’s documentation
protocols and procedures. The Hospital disagreed with the rest of our recommendations. After
considering the Hospital’s comments on our draft report, we maintain that all of our findings and
recommendations are correct.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION......................................................................................................................1

      BACKGROUND ..................................................................................................................1
         Inpatient Rehabilitation Facilities ...............................................................................1
         Norwalk Hospital ........................................................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2
          Objective .....................................................................................................................2
          Scope ...........................................................................................................................2
          Methodology ...............................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

      PROGRAM REQUIREMENTS ..........................................................................................4

      DOCUMENTATION OF PREADMISSION SCREENING ...............................................5
         Federal Requirements ..................................................................................................5
         Inadequate Documentation of Preadmission Screening ..............................................5

      DOCUMENTATION OF POSTADMISSION REHABILITATION
       PHYSICIAN EVALUATION ...........................................................................................6
         Federal Requirements ..................................................................................................6
         Inadequate Documentation of Postadmission Rehabilitation
           Physician Evaluation ................................................................................................6

      DOCUMENTATION OF INDIVIDUALIZED OVERALL PLAN OF CARE ..................7
         Federal Requirements ..................................................................................................7
         Inadequate Documentation of Individualized Overall Plan of Care ...........................7

      DOCUMENTATION OF INTERDISCIPLINARY TEAM MEETINGS ...........................8
         Federal Requirements ..................................................................................................8
         Inadequate Documentation of Interdisciplinary Team Meetings ................................8

      THE HOSPITAL’S PROCEDURES DID NOT ENSURE THAT
       DOCUMENTATION REQUIREMENTS WERE MET ..................................................9

      OVERPAYMENT ESTIMATES .........................................................................................9

      RECOMMENDATIONS .....................................................................................................9




                                                                     iii
  NORWALK HOSPITAL COMMENTS AND
   OFFICE OF INSPECTOR GENERAL RESPONSE.........................................................9
         Audit Was Unnecessary and Unprecedented … .................................................10
         Documentation “Checklist” To Recommend Claims Denials Inconsistent With
           Coverage and Payment Requirements .............................................................10
         Audit Approach Contained Other Limitations ....................................................11
         Hospital’s Consultants Disagree With Findings .................................................12

APPENDIXES

  A: SAMPLING DESIGN AND METHODOLOGY

  B: SAMPLE RESULTS AND ESTIMATES

  C: EXAMPLES OF MEDICAL REVIEW DETERMINATIONS

  D: NORWALK HOSPITAL COMMENTS




                                                    iv
                                                INTRODUCTION

BACKGROUND

Inpatient Rehabilitation Facilities

An inpatient rehabilitation facility (IRF) provides rehabilitation for patients who require a
hospital level of care to improve their ability to function. Effective for discharges on or after
January 1, 2010, documentation requirements specified in 42 CFR § 412.622(a)(4) and (5) must
be met to ensure that the IRF care is reasonable and necessary under the Social Security Act (the
Act), § 1862(a)(1)(A). These requirements state that the patient’s medical record at the IRF must
include (1) a comprehensive preadmission screening, (2) a postadmission rehabilitation
physician evaluation, and (3) an individualized overall plan of care developed by a rehabilitation
physician. The documentation must also demonstrate that the patient requires an
interdisciplinary team approach to care, as evidenced by weekly interdisciplinary team meetings
led by a rehabilitation physician.

The documentation requirements ensure that the IRF coverage requirements specified in 42 CFR
§ 412.622(a)(3) are met. The coverage requirements specify that at the time of admission, the
IRF must have a reasonable expectation that the patient needs multiple intensive therapies,
including physical or occupational therapy; is able to actively participate and demonstrate
measurable functional improvement; and requires supervision by a rehabilitation physician to
assess the patient and modify the course of treatment as needed to maximize the benefit from the
rehabilitation process.

The Centers for Medicare & Medicaid Services (CMS) designed the 2010 IRF regulations to reflect
current best practices in medicine for IRF care 1 and to emphasize the importance of rehabilitation
physician 2 documentation quality in the management of complex inpatient rehabilitation services.
The Medicare Benefit Policy Manual (the Manual), Pub. No. 100-02, chapter 1, section 110.1.1,
reiterates the requirement in 42 CFR § 412.622(a)(4) that a determination be made through a careful
preadmission screening within 48 hours immediately preceding the IRF admission and that “trial”
IRF admissions, during which physicians admit patients for 3 to 10 days to assess whether they
would benefit significantly from IRF treatment, are no longer considered reasonable and necessary.

During our calendar year (CY) 2010 audit period, CMS contracted with Part A Medicare
Administrative Contractors (MAC) to process and pay claims submitted by IRFs. CMS also
contracted with Quality Improvement Organizations (QIO) to protect the integrity of the
Medicare trust fund by ensuring that Medicare pays only for services that are reasonable,
medically necessary, and provided in the most appropriate settings.

1
 CMS National Provider Training Call Transcript, Revised Inpatient Rehabilitation Facility Prospective Payment
System Coverage Requirements, November 12, 2009, page 4.
2
 For the purposes of this report, “rehabilitation physician” is the IRF physician, with specialized training and
experience in rehabilitation, in charge of the patient during the inpatient rehabilitation stay, as opposed to ancillary
physicians, such as cardiologists, neurologists, internal medicine specialists, and others who assist the rehabilitation
physician at the IRF.

                                                           1
Norwalk Hospital

Norwalk Hospital (the Hospital) is a 328-bed not-for-profit acute care community teaching
hospital located in Norwalk, Connecticut, that operates a 25-bed IRF unit. Medicare paid the
Hospital $8,136,686 for 325 IRF claims for services provided to beneficiaries during
CY 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital billed IRF claims that complied with
Medicare documentation requirements.

Scope

Our audit covered the 325 IRF claims with CY 2010 discharge dates, for which the Hospital
received total Medicare payments of $8,136,686.

We limited our review of the Hospital’s internal controls to its procedures for documenting IRF
services and submitting Medicare claims.

We conducted our fieldwork at the Connecticut QIO and at the Hospital from September 2011
through April 2012.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   discussed with CMS officials the 2010 revisions to the Medicare regulations for
        documenting IRF care;

    •   extracted paid claim data from CMS’s National Claims History file to identify the 325
        IRF claims covered by our review;

    •   selected a stratified random sample of 100 claims, for which Medicare paid the Hospital
        $2,777,896, including $462,362 in outlier payments 3 (see Appendix A for our sampling
        design and methodology);

3
 An outlier payment is a payment in addition to the basic prospective payment system payment for cases involving
extraordinarily high costs.

                                                        2
   •   reviewed data from CMS’s Common Working File for the 100 sampled claims to
       (1) validate claim information extracted from the National Claims History file and
       (2) determine whether any of the selected claims had been canceled or adjusted;

   •   obtained the services of Qualidigm, the Connecticut QIO, to review all medical records
       associated with the 100 sampled claims to determine whether the documentation
       supported the IRF level of care;

   •   obtained the services of National Government Services, the Hospital’s MAC, to confirm
       the accuracy of the Connecticut QIO’s determination by conducting an independent
       medical review on a subset of the sampled claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated overpayments associated with claims that did not comply with Medicare
       documentation requirements;

   •   used our sample results to estimate the total value of overpayments in our sampling frame
       (see Appendix B for our sample results and estimates); and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The Hospital frequently billed IRF claims that did not comply with Medicare documentation
requirements. For 98 of the 100 claims that we sampled, the Hospital billed IRF claims that did
not comply with Medicare documentation requirements. Specifically, for these 98 claims, the
Hospital’s medical records did not include sufficient documentation to support any of the
following required elements:

   •   documentation that a comprehensive preadmission screening occurred within the
       48 hours immediately preceding the admission,

   •   documentation that a rehabilitation physician performed a postadmission evaluation
       within the first 24 hours of the IRF admission,



                                                3
   •   documentation that a rehabilitation physician developed and documented an
       individualized overall plan of care within 4 days of the IRF admission, and

   •   documentation that interdisciplinary team meetings met all Federal requirements.

See Appendix C for examples of medical review determinations.

The Hospital’s procedures did not ensure that IRF services were documented according to
Medicare requirements.

The Hospital improperly received $2,738,379 in Medicare payments associated with 98 of the
100 claims that we sampled. Based on our sample results, we estimate that Medicare overpaid
the Hospital an additional $5,236,378 for the 225 IRF claims that were not included in our
sample.

PROGRAM REQUIREMENTS

Pursuant to the Act, § 1862(a)(1)(A), no Medicare payment may be made for items or services
that are not reasonable and necessary for diagnosing or treating illness or injury or for improving
the functioning of a malformed body member. Effective for discharges on or after January 1,
2010, documentation requirements specified in 42 CFR § 412.622(a)(4) and (5) must be met to
ensure that IRF care is reasonable and necessary under the Act (74 Fed. Reg. 39762, 39788
(August 7, 2009)). These requirements state that the patient’s medical record at the IRF must
include (1) a comprehensive preadmission screening, (2) a postadmission rehabilitation
physician evaluation, and (3) an individualized overall plan of care developed by a rehabilitation
physician. The documentation must also demonstrate that the patient requires an
interdisciplinary team approach to care, as evidenced by weekly interdisciplinary team meetings
led by a rehabilitation physician.

The documentation requirements are intended to ensure that the IRF coverage requirements
specified in 42 CFR § 412.622(a)(3) are met (42 CFR § 412.622(a)(4)). The coverage
requirements in section 412.622(a)(3) specify that at the time of admission the IRF must have a
reasonable expectation that the patient meets all of the following requirements: (1) requires the
active and ongoing intervention of multiple therapies, including physical or occupational
therapy; (2) is sufficiently stable and able to actively participate and demonstrate measurable
functional improvement in an intensive rehabilitation therapy program; and (3) requires
supervision by a rehabilitation physician to assess the patient medically and functionally and to
modify the course of treatment as needed to maximize the patient’s capacity to benefit from the
rehabilitation process.

Section 110.2 of the Manual states that for IRF care to be considered reasonable and necessary,
the documentation in the patient’s IRF medical record (which must include the preadmission
screening described in section 110.1.1, the postadmission physician evaluation described in
section 110.1.2, and the overall plan of care described in section 110.1.3) must demonstrate that
IRF admission is reasonable and necessary.


                                                 4
DOCUMENTATION OF PREADMISSION SCREENING

Federal Requirements

Pursuant to 42 CFR § 412.622(a)(4), at the time of admission, the patient’s medical record at the
IRF must contain documentation of a comprehensive preadmission screening performed within
the 48 hours immediately preceding the IRF admission. The screening includes a detailed
review of the patient’s condition and medical history, serves as the basis for the initial
determination of whether the patient meets the requirements for an IRF admission, and is used to
inform a rehabilitation physician, who reviews and documents concurrence with the findings and
results of the screening.

According to the Manual, chapter 1, section 110.1.1, IRFs must justify the IRF admission by
documenting in the patient’s medical record 4 the results of a preadmission screening that was
conducted within the 48 hours immediately preceding the admission. 5 The preadmission
documentation must be detailed, comprehensive, and indicate the following: the patient’s prior
level of function (prior to the event causing the need for intensive rehabilitation therapy), the
expected level of improvement, the expected length of time to achieve the level of improvement,
an evaluation of the risk for clinical complications, the conditions that caused the need for
rehabilitation, the therapies needed, the expected frequency and duration of IRF treatment, the
anticipated discharge destination, and any anticipated postdischarge treatments. The medical
record must include evidence of the rehabilitation physician’s review and concurrence with the
findings of the preadmission screening after the screening is completed and prior to the IRF
admission.

Inadequate Documentation of Preadmission Screening

For 98 claims, the preadmission screening documentation did not justify the IRF level of care.
The documentation did not sufficiently describe the patient’s prior level of function (prior to the
event causing the need for intensive rehabilitation therapy), the expected level of improvement,
the expected length of time to achieve the level of improvement, an evaluation of the risk for
clinical complications, the conditions that caused the need for rehabilitation, the therapies
needed, the expected frequency and duration of IRF treatment, the anticipated discharge
destination, and any anticipated postdischarge treatments.


4
 Reiterating the requirement in 42 CFR § 412.622(a)(4)(i), the Manual, section 110.1.1, requires “all preadmission
screening documentation (including documentation transmitted from the referring hospital or other prior inpatient
hospital stay, if applicable) be retained in the patient’s medical record at the IRF.” Information housed only in the
acute care hospital’s medical record that is not in some way included in or copied over to the IRF medical record
may not be used to demonstrate the IRF’s compliance with the requirements in 42 CFR § 412.622(a)(3), (4), and (5)
or the Manual, chapter 1, section 110.
5
  Pursuant to 42 CFR § 412.622(a)(4)(A), “a preadmission screening that includes all of the required elements, but
that is conducted more than 48 hours immediately preceding the IRF admission, will be accepted as long as an
update is conducted … to update the patient’s medical and functional status within the 48 hours immediately
preceding the IRF admission and is documented in the patient’s medical record.”


                                                          5
In addition, the patients’ medical records included only brief handwritten narratives about the
history of present illness, with lists of comorbid conditions; names of specific insurance
coverage; and checkoff boxes identifying the ordered therapies and general functional
characteristics, such as levels of prognosis, mental status, ambulation, endurance, and
motivation. This preadmission screening information was insufficient to document, in
accordance with the requirements in 42 CFR § 412.622(a)(4)(i) and section 110.1.1 of the
Manual, a comprehensive assessment and the specific reasons for the inpatient rehabilitation
admission.

For 73 of the 98 claims with preadmission screening documentation that did not justify, in
accordance with CMS’s requirements, that IRF care was reasonable and necessary, the referring
physician indicated the date of the signature but not the time. Therefore, we were unable to
determine whether (1) the referring physicians performed the screenings within 48 hours of
admission or (2) the rehabilitation physicians had reviewed and concurred with the findings of
the preadmission screenings before the admissions. For an additional 17 of the 98 claims,
preadmission screenings were either not documented or lacked signatures, dates, and times of
when the screenings were performed or approved.

DOCUMENTATION OF POSTADMISSION REHABILITATION
PHYSICIAN EVALUATION

Federal Requirements

Pursuant to 42 CFR § 412.622(a)(4), the patient’s medical record at the IRF must document a
postadmission rehabilitation physician evaluation that meets all of the following requirements:
completed within 24 hours of the patient’s admission to the IRF, documents the patient’s status
on admission to the IRF, includes a comparison with the information noted in the preadmission
screening documentation, and serves as the basis for the development of the overall
individualized plan of care.

According to the Manual, chapter 1, section 110.1.2, the postadmission evaluation must also
(1) identify any relevant changes that may have occurred since the preadmission screening;
(2) include a documented history and physical exam, as well as a review of the patient’s prior
and current medical and functional conditions and comorbidities; and (3) support the medical
necessity of the IRF admission.

Inadequate Documentation of Postadmission Rehabilitation Physician Evaluation

For 98 claims, the medical records did not document that the postadmission rehabilitation
physician evaluations met all of the requirements. Specifically:

   •   For 88 claims, the medical records did not document that the rehabilitation physicians
       performed, within the first 24 hours of IRF admission, a history and physical
       examination. The medical records for these claims included rehabilitation physician
       progress notes that presented only a brief review of the patients’ medical and functional
       status. These notes did not include additional required information, such as a comparison

                                                6
       with the information noted in the preadmission screening documentation and an
       identification of any relevant changes that may have occurred since the preadmission
       screening. As a result, there was insufficient documentation to establish, in accordance
       with CMS’s requirements, that IRF care was reasonable and necessary.

   •   For 10 claims, the rehabilitation physicians completed history and physical examinations
       within the first 24 hours of admission but did not include additional required information,
       such as a comparison with the information noted in the preadmission screening
       documentation and an identification of any relevant changes that may have occurred
       since the preadmission screening. As a result, there was insufficient documentation to
       establish, in accordance with CMS’s requirements, that IRF care was reasonable and
       necessary.

In addition, 22 of the 98 claims would have met the admitting history and physical examination
requirement if the dates and times of the examinations had been documented to have occurred
within 24 hours of the IRF admissions.

DOCUMENTATION OF INDIVIDUALIZED OVERALL PLAN OF CARE

Federal Requirements

Pursuant to 42 CFR § 412.622(a)(4), the patient’s IRF medical record must contain
an individualized overall plan of care that is developed by the rehabilitation physician with input
from the interdisciplinary team within 4 days of the patient’s admission.

Further, guidance from the Manual, chapter 1, section 110.1.3, states that it is the sole
responsibility of a rehabilitation physician to integrate information that is required in the overall
plan of care, including an estimated length of stay, and to document it in the patient’s IRF
medical record. This integration includes information from the preadmission screening,
postadmission physician evaluation, and other information from the assessments of all therapy
disciplines and clinicians involved in treating the patient. The overall plan of care must
detail the patient’s medical prognosis, anticipated interventions, functional outcomes, and
discharge destination from the IRF stay, thereby supporting the medical necessity of the
admission. The overall plan of care must include the expected intensity, frequency, and duration
of physical, occupational, speech-language pathology, and prosthetic/orthotic therapies required
by the patient during the IRF stay.

Inadequate Documentation of Individualized Overall Plan of Care

For 98 claims, the medical records did not contain properly documented overall plans of care
developed by rehabilitation physicians. Although IRF personnel prepared and documented
assessments usually within 4 days of the IRF admission, rehabilitation physicians did not
develop and integrate this information into individualized overall plans of care and document
them in the medical records. Therefore, there was no plan of care documentation by the



                                                  7
rehabilitation physicians for any of the required elements, including medical prognosis,
anticipated interventions, functional outcomes, and estimated lengths of stay.

DOCUMENTATION OF INTERDISCIPLINARY TEAM MEETINGS

Federal Requirements

Pursuant to 42 CFR § 412.622(a)(5) and the Manual, chapter 1, section 110.2.5, for an IRF claim
to be considered reasonable and necessary, the patient must require an interdisciplinary team
approach to care, as evidenced by documentation retained in the patient’s medical record of
interdisciplinary team meetings that meet all of the following requirements: (1) led by a
rehabilitation physician; (2) consisting of a registered nurse, a social worker or case manager,
and a licensed or certified therapist from each therapy discipline involved in treating the patient;
(3) occurring at least once per week throughout the stay to implement appropriate treatment
services and review progress toward goals; and (4) documenting the results and findings of the
team meetings and the rehabilitation physician’s concurrence with those results and findings.

The Manual, chapter 1, section 110.2.5, reiterates these requirements and also requires that
documentation of each team meeting include the names and professional designations of the
participants.

Inadequate Documentation of Interdisciplinary Team Meetings

For 98 claims, medical record documentation was not sufficient to support the occurrence of
interdisciplinary team meetings and did not contain all required elements. The rehabilitation
physicians made only brief mention of team meetings in certain progress notes, which describe
the daily status of the patients, and did not address additional requirements. For example, one
rehabilitation physician’s only reference to team meetings came at the end of progress notes
where he stated, “continue acute rehab as discussed at the team meeting today, including
physical therapy, occupational therapy, speech therapy, registered nurse, and case management.”

Documentation retained in the patients’ medical record of interdisciplinary team meetings did
not identify:

    •   the results, findings, and decisions made at the meetings;

    •   the concurrence of the rehabilitation physician with the results, findings, and decisions;
        and

    •   the names and professional designations of the participants.




                                                 8
THE HOSPITAL’S PROCEDURES DID NOT ENSURE THAT
DOCUMENTATION REQUIREMENTS WERE MET

The Hospital’s procedures did not ensure that IRF services were documented according to
Medicare requirements. Specifically, medical record documentation practices were not adapted
to comply with all of the 2010 documentation requirements. As a result, medical reviewers
could not determine whether an IRF level of care was reasonable and necessary in accordance
with section 1862(a)(1)(A) of the Act.

OVERPAYMENT ESTIMATES

The Hospital billed $2,738,379 during CY 2010 for 98 IRF claims that did not comply with
Medicare documentation requirements. Based on our sample results, we estimate that Medicare
overpaid the Hospital an additional $5,236,378 for the 225 IRF claims that were not included in
our sample.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare program $2,738,379 for 98 IRF claims in our sample that did not
       comply with Medicare requirements;

   •   work with CMS to resolve the 225 IRF claims that were not included in our sample, with
       potential overpayments estimated at $5,236,378;

   •   identify IRF claims in subsequent years that did not meet Medicare documentation
       requirements and refund any associated overpayments; and

   •   develop and implement procedures to ensure that it bills Medicare only for IRF services
       that comply with Medicare documentation requirements.

NORWALK HOSPITAL COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Hospital agreed with our fourth recommendation
and described steps that it has taken to review and improve the IRF unit’s documentation
protocols and procedures. The Hospital disagreed with the rest of our recommendations. The
Hospital’s comments regarding these recommendations are summarized below and are included
in their entirety as Appendix D.

After considering the Hospital’s comments on our draft report, we maintain that all of our
findings and recommendations are correct.



                                                9
Audit Was Unnecessary and Unprecedented

Norwalk Hospital Comments

The Hospital noted that our audit marked the first time that we have targeted a specific hospital
for compliance with the revised Medicare documentation requirements, which took effect on
January 1, 2010. The Hospital stated that we should have conducted a wider review of
compliance across the industry for this initial review of compliance with these new requirements.

Office of Inspector General Response

We use data analysis to identify providers that bill claims that have a high risk of overpayments.
We selected the Hospital for our initial review of IRF compliance with the revised
documentation requirements because our data showed that the Hospital was among the highest in
its region for number of claims with outlier payments for CY 2010. Medicare made $991,617 in
outlier payments for 92 IRF claims to the Hospital, which has a 25-bed IRF unit.

Documentation “Checklist” To Recommend Claims Denials Inconsistent With
Coverage and Payment Requirements

Norwalk Hospital Comments

The Hospital stated that our methodology was flawed because we relied on a documentation
checklist to recommend the disallowance of IRF claims rather than examining the medical
necessity of IRF services that the Hospital provided. The Hospital suggested that a missing note
or a failure to document within a prescribed time frame could eliminate payment for a case that
otherwise was reasonable and necessary. The Hospital cited excerpts from the Manual,
chapter 1, section 110, including:

   •   “Medicare requires determinations of whether IRF stays are reasonable and necessary to
       be based on an assessment of each beneficiary’s individual care needs.”

   •   “Medicare contractors must consider the documentation in a patient’s IRF medical record
       when determining whether an IRF admission was reasonable and necessary, specifically
       focusing on the preadmission screening, the postadmission physician evaluation, the
       overall plan of care, and the admission orders.”

The Hospital stated that these excerpts show that consideration of documentation is important,
but it is not necessarily the exclusive means of assessing medical necessity. The Hospital
concluded that because our review did not examine medical necessity, there is no basis for a
recommendation that the Hospital refund overpayments to the Medicare program.

Office of Inspector General Response

We based our audit of these claims on 42 CFR § 412.622(a)(3), (4), and (5) and CMS’s
interpretive guidance in the Manual, chapter 1, section 110. CMS established these specific

                                               10
requirements for time and content to ensure that providers meet IRF coverage requirements.
Based on these requirements, the Hospital’s documentation was deficient on multiple levels.

The IRF regulations unambiguously conditioned the reasonableness and necessity of an IRF
admission on the inclusion of specified forms of documentation in the patient record. In addition
to the excerpts from the Manual that the Hospital noted, the Manual also states that “IRF care is
only considered by Medicare to be reasonable and necessary under 1862(a)(1)(A) of the Social
Security Act if the patient meets all of the requirements outlined in 42 CFR § 412.622(a)(3), (4),
and (5) as interpreted in this section.”

Lastly, we disagree with the Hospital’s assertion that because we did not examine medical
necessity, there is no basis for a recommendation that the Hospital refund overpayments to the
Medicare program. IRF compliance with the documentation requirements is necessary to
determine whether a provider had met the coverage requirements for reasonable and necessary
IRF care.

Audit Approach Contained Other Limitations

Norwalk Hospital Comments

The Hospital stated that we did not review its preadmission screening process and that we
refused to consider and use the acute care records that were part of the IRF patient chart. The
Hospital suggested that we should have incorporated these readily available records when
making our findings and recommendations.

Office of Inspector General Response

We maintain that the Hospital did not provide comprehensive evidence in the IRF medical
records of the results of a preadmission screening process. The Manual emphasizes the
importance of the content of the preadmission screening document: “The focus of the review of
preadmission screening information will be on its completeness, accuracy, and extent to which it
supports the appropriateness of the IRF admission decision, not how the process is organized”
(chapter 1, section 110.1.1).

Contrary to the Hospital’s assertion, we considered the acute care records in our determination of
overall findings even though it was unclear whether these records were (1) part of the permanent
IRF charts, (2) represented in any electronic format designating its inclusion in IRF
documentation, and (3) available to clinicians during the IRF stays. 6 We reviewed these records
even though CMS has stated in the regulations, in the Manual, and in the training clarifications
online that a provider must retain the required preadmission screening documentation in the
patient’s medical record at the IRF. CMS officials informed us that any documents pertaining to
the admission or care of a patient in the IRF must be a permanent part of the medical record at

6
 On December 5, 2011, we asked the Hospital whether the IRF medical records (including preadmission screening
documentation) that it provided to us were complete. On December 14, 2011, the Hospital responded that all history
and physicals were included in the records provided, and the “Level of Care Assessments” were the preadmission
screening documents. During February 2012, the Hospital provided us with additional acute care records.

                                                       11
the IRF. They also stated that records housed only in the acute care record that are not included
or copied over to the IRF medical record may not be used to demonstrate compliance with
Medicare requirements. Further, CMS officials stated that Medicare reviewers may not go back
to the acute care record to find relevant information on the IRF admission or care.

In considering these acute care records, for 40 of the 100 sample claims, we found
documentation of acute care rehabilitation physician consultations that were performed within
48 hours of IRF admission. However, only 10 of the 40 claims complied with the Medicare
requirement that the IRF rehabilitation physician approve the IRF admission prior to the
admission. Because approvals were not time stamped for 30 claims, we could not determine
whether these approvals were made prior to the IRF admission. For 8 of the 10 claims, acute
care rehabilitation physician consultations were not accompanied by the other required
documentation for Medicare IRF coverage. The remaining two claims demonstrated overall
compliance with the documentation requirements for Medicare IRF coverage.

Hospital’s Consultants Disagree With Findings

Norwalk Hospital Comments

The Hospital stated that it engaged FTI Consulting, Inc. (FTI), to review Medicare claims in our
sample and provide professional and expert opinion on whether the records in those cases
supported the claims as reasonable and necessary. According to the Hospital, FTI has
determined that for a significant number of the sample cases, the patients needed the IRF level of
services.

Office of Inspector General Response

As stated in our report, the Connecticut QIO and National Government Services, the Hospital’s
MAC, assisted us in determining whether the Hospital complied with Medicare documentation
requirements. Further, CMS officials concurred with our application of the IRF documentation
requirements. Our medical review experts agreed that the Hospital’s documentation was
deficient for the key required elements and did not comply with Medicare requirements.




                                               12
APPENDIXES
                                                                                       Page 1 of 2


              APPENDIX A: SAMPLING DESIGN AND METHODOLOGY

POPULATION

The population consisted of Norwalk Hospital (the Hospital) inpatient rehabilitation facility
(IRF) claims for discharges in calendar year 2010.

SAMPLING FRAME

We obtained a Microsoft Access table of 360 IRF claims and removed claims with zero paid
amounts. The resulting table contained a sampling frame of 325 IRF claims with a total paid
amount of $8,136,685.49.

SAMPLE UNIT

The sample unit was an IRF claim.

SAMPLE DESIGN

Our sample design was a stratified random sample.


                      IRF Claim Payment           Number of          Dollar Value of IRF
    Stratum                 Range                 IRF Claims          Claim Payments
       1            $2,038.95 to $58,924.67           318                 $7,562,676
2 (100% review)     Greater than $58,924.67             7                    574,010
     Total                                            325                 $8,136,686

SAMPLE SIZE

We randomly selected 93 claims from stratum 1 and selected all 7 claims from stratum 2. Our
total sample size was 100 IRF claims.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General (OIG), Office of Audit
Services (OAS), statistical software.
                                                                                    Page 2 of 2


METHOD OF SELECTING SAMPLED UNITS

We consecutively numbered the sample units in the frame from 1 to 318. After generating 93
random numbers for stratum 1, we selected 93 corresponding frame items. We selected all seven
claims from stratum 2.

ESTIMATION METHODOLOGY

We used the OIG, OAS, statistical software to estimate the dollar value of overpayments.
            APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                   Sample Results

                                                                IRF
Stratum   Frame       Value of      Sample      Value of      Claims in     Value of
           Size        Frame         Size       Sample         Error      Overpayments
   1       318       $7,562,676       93       $2,203,886        91        $2,164,369

   2        7           574,010        7            574,010       7           574,010

 Total     325       $8,136,686       100     $2,777,896         98        $2,738,379


                               Estimated Overpayments

            (Limits Calculated for a 90-Percent Confidence Interval)

                 Point estimate                     $7,974,757

                 Lower limit                         7,488,994

                 Upper limit                         8,460,520
                                                                                         Page 1 of 2


       APPENDIX C: EXAMPLES OF MEDICAL REVIEW DETERMINATIONS

The following examples of medical review determinations underscore the Hospital’s
noncompliance with the documentation requirements, pursuant to 42 CFR § 412.622(a)(3)(4)(5),
for reasonable and necessary IRF care. The examples represent clinical scenarios that may have
qualified as reasonable and necessary for IRF coverage if comprehensive planning for an
ongoing coordinated and focused delivery of care had been documented as required for the
preadmission screen, the postadmission evaluation, the overall plan of care, and an
interdisciplinary approach to care.

EXAMPLE 1

Pursuant to the Manual, chapter 1, section 110.2.4, close rehabilitation physician involvement in
the patient’s care is required, including face-to-face visits to assess the patient both medically
and functionally (with an emphasis on the important interactions between the patient’s medical
and functional goals and progress), as well as to modify the course of treatment as needed to
maximize the patient’s capacity to benefit from the rehabilitation process. The requirement for
IRF supervision is intended to ensure that IRF patients receive more comprehensive assessments
of their functional goals and progress in consideration of their medical conditions. The required
rehabilitation physician visits must be documented in the patient’s medical record at the IRF.

The Hospital was reimbursed $73,335, including an outlier payment of $37,469, for a 28-day
IRF stay for a patient with a traumatic brain injury involving surgeries. The patient’s medical
record did not document that the rehabilitation physicians:

   •   defined goals and identified methods to attain measurable functional improvement for the
       patient at the onset of the admission and throughout the stay and

   •   integrated a medical and functional course of care for the patient, as the progress notes
       were brief and addressed mostly medical issues.

Because the medical record documentation did not include sufficient detail and justification
supporting the patient’s acute rehabilitation potential at the time of admission and throughout the
stay, medical reviewers could not determine whether the IRF care was reasonable and necessary.

EXAMPLE 2

According to the Manual, chapter 1, section 110, “the IRF benefit is not to be used as an
alternative to the full course of treatment in the referring hospital. A patient who has not yet
completed the full course of treatment in the referring hospital is expected to remain in the
referring hospital, with appropriate rehabilitation treatment provided, until the patient has
completed the full course of treatment.”

The Hospital was reimbursed $93,105, including an outlier payment of $55,562, for a 63-day
IRF stay immediately preceded by a 3-day stay at the Hospital’s acute inpatient unit for a patient
                                                                                           Page 2 of 2


who was experiencing an evolving right middle cerebral artery stroke. The patient’s medical
record did not indicate that the rehabilitation physician:

   •   evaluated the patient’s practical potential for cognitive rehabilitation prior to and at the
       time of admission, as the patient was admitted with delirium, somnolescence, and
       aspiration, all clinical complications that limit the patient’s ability to actively participate
       in and benefit from intensive inpatient rehabilitation, and

   •   integrated a medical and functional course of care for the patient, as the progress notes
       were brief and lacked evidence of communication with the interdisciplinary team.

Because the patient’s medical record did not include sufficient detail and justification for the IRF
admission, medical reviewers could not determine whether the IRF care was reasonable and
necessary. However, medical reviewers could determine, based on detailed documentation
provided by other physicians, that the patient had clinical complications warranting a completion
of the full course of treatment in the Hospital’s acute inpatient unit beyond the 3-day stay. The
premature IRF admission, lengthy IRF stay, and costly outlier payment would likely have been
avoided if the acute inpatient unit had better managed the patient’s clinical complications and if
the IRF had complied with documentation requirements.
                         APPENDIX D: NORWALK HOSPITAL COMMENTS
                                                                                                                   Page 1 of 11
                                             M Norwalk 

                                             _11'-i_Ho_s~ital 

                                             Compassion. Expertise. Results.




V1A OVERNIGHT DELIVERY

November 19, 2012

Michael J. Armstrong
Regional Inspector General for Audit Services
Office of Audit Services, Region I
Office of Inspector General
U.S. Department of Health and Human Services
JFK Federal Building
15 New Sudbury Street, Room 2425
Boston, MA 02203

         Re: 	    Norwalk Hospital's Response to 

                  Draft Report Number A-01-11-00531 (October 22, 2012) 

                  Office of Inspector General ("OIG") 

                  U.S. Department of Health and Human Services ("DHHS")

Dear Mr. Armstrong:

This letter responds to the OIG's Draft Report Number A-01-11-00531 entitled "Norwalk
Hospital Did Not Comply With Medicare Inpatient Rehabilitation Facility Documentation
Requirements" (the "Draft Report"). In the Draft Report, the OIG recommends that Norwalk
Hospital (the "Hospital"):

         1. 	     refund to the Medicare program $2,738,379 for 98 inpatient rehabilitation facility
                  ("IRF") claims from 2010 that, according to the OIG, did not comply with
                  Medicare requirements;

        2. 	      work with the Centers for Medicare and Medicaid Services ("CMS") to resolve
                  the 225 IRF claims from 2010 that were not included in the OIG's sample, with
                  potential overpayments estimated at $5,236,378;

        3. 	      identify IRF claims in subsequent years that did not meet Medicare
                  documentation requirements and refund any associated overpayments; and

        4. 	      develop and implement procedures to ensure that the Hospital bills Medicare only
                  for IRF services that comply with Medicare documentation requirements.




                 Norwalk Hospital • 34 Maple Street • Norwalk, CT 06856 • 203-852-2000 • norwalkhospital.org


2012 recipient of the HealthGrades® Distinguished Hospital Award For Clinical Excellence™   'v.'
                                                                                             * *•
                                                                                                  ~~"~/~:-~!,!;! ,9T~~RH~A~:
                                                                                          Page 2 of 11




 Michael J. Armstrong
 Office of Inspector General
 November 19, 2012
 Page 2


 Introduction

Established in 1893, the Hospital is a 328-bed not-for-profit community hospital that operates a
25-bed accredited IRF unit and has been a partner in the Medicare Program since its inception in
1965. The Hospital's IRF unit has provided high quality care to the community for the last 30
years. Although we agree, as discussed below, that the IRF unit's documentation could have
been enhanced, the IRF unit provided reasonable and necessary services that improved the
quality of life for its patients.

The Hospital respects the OIG's role in assessing compliance to ensure that Medicare dollars are
spent on reasonable and necessary services. The compliance program at the Hospital is
dedicated to the same basic principles and based on the OIG's Compliance Program Guidance
for Hospitals. The Hospital aims to provide quality medically necessary care, generate and
maintain comprehensive documentation, code and bill accurately and correctly, monitor and
audit billings, and promptly refund any identified overpayments.

Response to OIG Recommendation Number 4

In response to the OIG's fourth recommendation, the Hospital agrees that it should continuously
improve its procedures to ensure that it bills Medicare only for IRF services that comply with
Medicare documentation requirements. At the time of the OIG audit, the Hospital had a
preadmission screening process in place for the IRF unit. That process involved physician
review and discussion of each case referred for admission to the unit. When the Hospital's
preadmission screening process resulted in a decision to decline a referral for admission, the
Hospital cooperated with the referring physician as well as the patient and his or her family to
identify and locate an appropriate, alternative care setting.

The OIG's audit prompted the Hospital to take immediate steps to review the JRF unit's
documentation protocols and practices to make certain that the steps in the process and decisions
made were documented consistent with Medicare documentation requirements. While the OIG
audit results were pending, the Hospital retained FTI Consulting, Inc. ("FTI"), an internationally­
known, reputable consulting firm with extensive expertise in all Medicare requirements for IRF
services and whose work product has been acceptable to OIG, CMS and the Department of
Justice for settlement purposes in reviews and investigations of other Medicare providers and
suppliers. Under FTI's guidance, the Hospital enhanced and improved the IRF unit's procedures
for preadmission screening, post-admission assessment, the interdisciplinary team approach, care
delivery and discharge procedures with particular focus on ensuring that that the IRF team was
documenting consistent with Medicare documentation requirements. This effort involved a
thorough review of the IRF unit's policies and procedures, one-on-one training of all IRF unit
                                                                                          Page 3 of 11




Michael J. Armstrong
Office of Inspector General
November 19, 2012
Page 3


clinicians, including rehabilitation physicians, and follow-up audits to confirm that the team had
achieved full compliance with the revised policies and processes. The Hospital completed this
work prior to April 1, 2012.

Response to OIG Recommendation Numbers 1-3

The Hospital disagrees with, and strongly objects to, the OIG's first three recommendations and
reserves all rights in the event that CMS accepts the OIG's proposed recommendations. The
Hospital's specific reasons for not concurring with the OIG's proposed recommendations are set
forth below.

        A. 	 Singling out Norwalk Hospital for this type of audit was unnecessary and
             unprecedented.

This audit marks the first time, in Region I and possibly nationwide, that the OIG has targeted a
specific hospital for compliance with the revised Medicare documentation requirements for IRFs,
which took effect on January 1, 2010. 42 C.F.R. §412.622 (a)(4) and (5) (the "2010
Documentation Requirements"). In fact, during discussions with the Hospital the OIG referred
to its audit as a "pilot audit." The OIG's treatment of the Hospital, the OIG's analysis of the
audit results, and the OIG's recommendations to CMS should have been similar to other "pilot
audits," such as the study presented in the OIG's September 2012 report entitled "Medicare
Overpaid Inpatient Rehabilitation Facilities Millions of Dollars for Claims with Late Patient
Assessment Instruments for Calendar Years 2009 and 2010" (A-01-11-00534). That audit did
not single out any individual IRF. Especially in this case, which involved an assessment of
compliance with documentation requirements and did not involve review of billing, coding, or
timely filing errors, the Hospital feels strongly that the OIG should have conducted a wider
review, sampling compliance across the industry before targeting a specific hospital.

Not only has the OIG singled out the Hospital, but it has also chosen to use a title for the report
that is conclusory. For this reason, we respectfully request that the OIG revise the title to truly
reflect how the OIG characterized the audit to the Hospital: "Review of Inpatient Rehabilitation
Facility Admissions at Norwalk Hospital for Calendar Year 2010."

       B. 	 The OIG's use of a documentation "checklist" to recommend denial of IRF
            claims is illogical and inconsistent with CMS' coverage and payment
            requirements.

CMS issued revised regulations governing IRF services "to reflect changes that have occurred in
medical practice during the past 25 years and the implementation of the IRF PPS." 74 Fed. Reg.
                                                                                                            Page 4 of 11




    Michael J. Armstrong
    Office of Inspector General
    November 19,2012
    Page 4


39762, 39788 (August 7, 2009). In revising the IRF coverage and payment requirements, CMS
indicated that the requirements would be "used to determine whether individual IRF claims are
for reasonable and necessary services under section 1862(a)(1) of the Act" (id.) and revised 42
C.P.R. §412.622 to set forth specific, technical documentation standards.          When CMS
promulgated the final regulations, it also issued revisions to Section 11 0 in Chapter 1 of the
Medicare Benefit Policy Manual ("MBPM"). 1

CMS recognized in the introduction to Section 110 that "Medicare requires determinations of
whether IRF stays are reasonable and necessary to be based on an assessment of each
beneficiary's individual care needs." Further, in Section 110.1, CMS states that "Medicare
contractors must consider the documentation contained in a patient's IRF medical record when
determining whether an IRF admission was reasonable and necessary, specifically focusing on
the preadmission screening, the post-admission physician evaluation, the overall plan of care,
and the admission orders." (emphasis added). This statement signifies that consideration of
documentation is an important, but not necessarily the exclusive, means of assessing medical
necessity. In responses to Frequently Asked Questions generated during the CMS roll out of the
revised regulations in 2009, CMS emphasized that medical reviewers must look at
"appropriateness of IRF admission," as illustrated by its response to the following question
concerning documentation of preadmission screening:

          Clarification regarding whether an IRF claim could be denied because a preadmission
          screening contains missing or conflicting information.

          Answer: We expect that IRFs would make every effort possible to include the basic
          information that we are requesting in the medical record so that medical reviewers can
          determine the appropriateness of the admission. The information should sufficiently
          describe the services furnished and the medical need for these services. If missing or
          conflicting information is not reasonably explained in the appropriate document in the
          IRF medical record, then the IRF claim could be subject to denial.




1
  Although CMS indicated that the MBPM provisions were simply intended to summarize the regulatory coverage
requirements and "will not contain substantive requirements beyond those that are in the regulation," (id. at 39789
and 39790), CMS added ten specific preadmission screening documentation requirements to the Manual that were
not set forth in the regulation. These requirements, which the OIG used to assess the Hospital and discussed in the
Draft Report, included: documentation of prior level of function, expected level of improvement, expected length of
time necessary to achieve improvement, evaluation risk for clinical complications, conditions that caused the need
for rehabilitation, treatment needed, expected frequency and duration of treatment, anticipated discharge destination,
anticipated post-discharge treatments and any other relevant information.
                                                                                       Page 5 of 11




Michael J. Armstrong 

Office of Inspector General 

November 19, 2012 

Page 5 



        Follow up to information for the November 12 provider trammg call, available at: 

        https ://www .ems. gov/InpatientRehabF acPPS/Downloads/IRF-Training­
        call_ version_ 4.pdf. See, question 10. (emphasis added) 


CMS made a similar comment in clarifying a question about documentation of the post­
admission physician evaluation:

       Clarification regarding whether an IRF claim may be subject to denial if the post­
       admission physician evaluation was not completed within the 24 hours immediately
       following the IRF admission, even though the patient's medical and functional status
       appeared to warrant an IRF admission.

       Answer: Yes, an IRF claim is subject to denial if the documentation requirements are not
       met. However, we expect that IRFs would make every effort possible to include the basic
       information that we are requesting in the medical record so that medical reviewers can
       determine the appropriateness ofthe IRF admission.

       Follow up to information for the November 12 provider trammg call, available at: 

       https://www.cms.gov/InpatientRehabFacPPS/Downloads/IRF-Training­
       call_version_4.pdf. See, question 18. (emphasis added) 


According to the Draft Report, the OIG's objective in the audit was "to determine whether the
Hospital billed IRF claims that complied with Medicare documentation requirements."
However, the OIG's audit did not review medical necessity. In fact, the OIG repeatedly stated
that the OIG's review would not and actually did not examine the overall medical necessity of
any particular claim. Furthermore, the 0 IG indicated that several claims may demonstrate
medical necessity and, hence, encouraged the Hospital to pursue the Medicare claims appeal
process.

It is difficult to understand why the OIG concluded that overpayments occurred based solely on a
checklist review without a proper analysis of medical necessity. Rote checklist reviews elevate
form over substance and lead to illogical and incorrect results. A missing note or a failure to
document within a prescribed time frame (~ preadmission assessment no earlier than 48 hours
prior to admission or post-admission assessment within 24 hours) could obviate payment for a
case that otherwise proves to be reasonable and necessary. With respect to the timing
requirements, the fact that a physician may have documented the preadmission assessment
within 24, 48 or 72 hours of admission does not change or otherwise affect a patient's need for
inpatient rehabilitation services.
                                                                                          Page 6 of 11




Michael J. Armstrong
Office of Inspector General
November 19, 2012
Page 6


In a review of any institution, a case might contain all the checklist documentation elements but
lack support for medical necessity. For example, the OIG determined that Case #11 met the
2010 Documentation Requirements. However, FTI reviewed Case #11 and found that the
patient's functional deficits did not support the need for inpatient rehabilitation services. It is
certainly not in the Hospital's interest to refute the OIG's finding in one of the only two cases
found to be in compliance, but the Hospital has elected in this response to highlight this
contradiction because it demonstrates the underlying flaw in the OIG's rote reliance on a
documentation checklist to assess the reasonableness and necessity of inpatient rehabilitation
admissions.

CMS clearly warns against the use of any such "rule of thumb" to deny an IRF claim in both the
revised sections 110 and 110.2.2 of MBPM as well as the previous section 110.1 of MBPM,
which instructed its contractors as follows:

       Medicare recognizes that determinations of whether hospital stays for 

       rehabilitation services are reasonable and necessary must be based 

       upon an assessment of each beneficiary's individual care needs. 

       Therefore, denials of services based on numerical utilization screens, 

       diagnostic screens, diagnosis or specific treatment norms, "the three 

       hour rule," or any other "rules of thumb," are not appropriate. 


Since the OIG's review did not examine medical necessity, there is no basis for recommending
that overpayments occurred. Simply put, the OIG's analysis was incomplete. Without an
appropriate and complete analysis of whether each individual claim was reasonable and
necessary, there is no support for a recommendation that the Hospital refund overpayments to
CMS.

       C. 	The OIG's audit approach contained other limitations that exacerbated the
           unreasonableness of the recommendations.

In addition to reliance on the documentation checklist, the OIG's audit approach contained two
other limitations that further exacerbated the error rate and high dollar overpayments that form
the basis for the OIG's recommendations.

           1. 	 The OIG did not review the Hospital's preadmission screenh g process.

Although Medicare regulations require that an IRF have an "effective" preadmission screening
process in place, the OIG's methodology, as described in the Draft Report, indicates that it did
not request copies of policies and procedures or otherwise examine the Hospital's procedures
                                                                                           Page 7 of 11




Michael J. Armstrong
Office of Inspector General
November 19, 2012
Page 7


and processes other than after the fact to "discuss[ ed] the incorrectly billed claims with Hospital
personnel to determine the underlying causes of noncompliance with Medicare requirements."
Draft Report at page 3. As discussed above, the Hospital did have a preadmission screening
process in place. The medical director of the IRF unit met in person with other members of the
unit's team daily to review and discuss each patient referred to assess appropriateness for
admission. If a patient was not appropriate, then referral for admission was declined, and the
Hospital worked with the patient and family to find an appropriate alternative setting. The
OIG's exclusive reliance on the documentation checklist approach, with no substantive
assessment of the Hospital's process, resulted in an incomplete review that cannot support the
conclusion that the Hospital was wrongly paid for IRF services provided.

          2. 	 The OIG refused to consider and utilize the acute care records that were part
               of the IRF patient chart.

In the Draft Report, the OIG cites Section 110.1.1 of MBPM "[r]eiterating" section
§412.622(a)(4)(i)) by requiring that "all preadmission screening documentation (including
documentation transmitted from the referring hospital or other prior inpatient hospital stay, if
applicable) be retained in the patient's medical record at the IRF." Draft Report at page 5,
Footnote 4. The OIG goes on to state that "[i]nformation housed only in the acute care
hospital's medical record that is not in some way included in or copied over to the IRF medical
record may not be used to demonstrate the IRF's compliance with the requirements in 42 C.F.R.
§412.622(a)(3),(4), and (5) or the Manual, Chapter 1, section 110." ld.

The majority of the patients admitted to the Hospital's IRF unit are transferred from the acute
care unit of the Hospital or another acute care hospital. In 2010, the medical director of the IRF
unit and the rest of the unit's team based admission decisions on a review of a detailed
consulting report from the physiatrist who assessed patients during their acute care stays to
determine whether they would meet the coverage requirements for inpatient rehabilitation.
These consult reports were maintained electronically. Like many hospitals, the Hospital is
moving towards the development of an electronic medical record that will contain
documentation of all aspects of a given patient's care and treatment, regardless of where those
services are provided on the Hospital's campus. In 2010, limited portions of IRF medical
records were maintained electronically, including physiatrist consult reports. These reports
were readily accessible from the computer terminals on the IRF unit. In addition, when a
patient was admitted to the IRF unit, the patient's acute care chart was sent with the patient to
the IRF unit where the paper acute care chart remained for three days while the patient's post
admission assessment was conducted and the interdisciplinary care plan developed.

While not specifically stated in the Draft Report, the OIG informed the Hospital that the
physiatrist's consulting reports, which formed the basis for the inpatient rehabilitation team's
                                                                                          Page 8 of 11




Michael J. Armstrong 

Office of Inspector General 

November 19,2012 

Page 8 



 preadmission screening assessment, could not be considered because they were not copied and
 physically included in the IRF unit's paper medical record. However, the IRF clinical team
 considered these reports as a part of the inpatient rehabilitation medical record. Section 110.1.1
 of MBPM requires that preadmission screening documentation be retained "in the patient's
 medical record at the IRF." The electronic records containing physiatrists' consults were
 maintained in the patient's electronic medical record, which was readily accessible from
 computer terminals at the IRF unit. It is hard to imagine that CMS developed a regulation and
 manual provision only three years ago when the entire health care industry was moving toward
 electronic medical records and excluded the possibility that a medical record relevant to
 preadmission screening might be maintained electronically. Yet, the OIG apparently would
 only have considered the physiatry consults if the Hospital had printed out copies of the
 electronic record and placed them physically in the printed patient record. As a result, since the
 OIG did not consider the physiatry records to be part of the IRF chart, it apparently did not
 consider these records, nor accorded any weight to these records, in the audit. It is
 incomprehensible that the OIG would not incorporate these readily available acute care records
 when deciding to impose such a devastating overpayment amount based on medical necessity.
 The acute care records were considered to be a part of the IRF records, and the Hospital
 considered these acute care records in making decisions about admissions.

       D. IRF experts disagree with the OIG's conclusions.

The Hospital has engaged FTI to review the Medicare claims in the OIG's sample and provide
FTI' s professional, expert opinion on whether the records in those cases supported the claims as
reasonable and necessary. Although FTI's review is ongoing, FTI has already determined for a
significant number of sample cases, including the two cases described in Appendix C of the
Draft Report, that the medical records support the conclusion that IRF services provided were
reasonable and necessary.

The following summarizes FTI's findings for the cases cited in Appendix C:

            1. 	 Example 1: Complexities of medical co-morbidities required inpatient level
                 of care

The OIG report contends that the patient's medical record did not document the following:

           o 	 The rehabilitation physician's defined goals and identified methods to attain
               measurable functional improvement for the patient at the onset of the admission
               and throughout the stay; and
                                                                                          Page 9 of 11




Michael J. Armstrong
Office of Inspector General
November 19,2012
Page 9


           o 	 Evidence that the rehabilitation physician integrated a medical and functional
               course of care for the patient, as the progress notes were brief and addressed
               mostly medical issues.

For the above reasons, the OIG concludes that its medical reviewers could not determine
whether the IRF care was reasonable and necessary.

FTI found that the documentation supported the patient's inpatient rehabilitation admission.
The patient required the services of occupational therapy and speech therapy in order to
improve his "activities of daily living" (ADLs), cognition, and nutrition. He received limited
therapy services initially due to seizures and the adverse effects of medication. His therapy was
increased as his medical condition improved and he received 15.7 5 hours of therapy during the
last full week of care. Unfortunately, the patient began to experience intermittent desaturation
during therapy. He returned to the acute hospital setting for surgery. The complexity of this
patient's medical co-morbidities required an inpatient level of care; a lower level of care would
not have been able to safely manage the patient's medical conditions.

           2. 	 Example 2: Record supports need for inpatient level of IRF care based on
                complexity of rehabilitation services and need for medical management

Appendix C of the OIG report states: "The patient's medical record did not indicate that the
rehabilitation physician:

          o 	 Evaluated the patient's practical potential for cognitive rehabilitation prior to and
              at the time of admission, as the patient was admitted with delirium,
              somnolescence, and aspiration, all clinical complications that limit the patient's
              ability to actively participate in and benefit from intensive rehabilitation; and

          o 	 Integrated a medical and functional course of care for the patient, as the progress
              notes were brief and lacked evidence of communication with the interdisciplinary
              team."

Additionally, the OIG found that because the patient's medical record did not include sufficient
detail and justification for the IRF admission, medical reviewers could not determine whether
the IRF care was reasonable and necessary. The medical reviewers also determined that the
patient had clinical complications warranting a completion of the full course of treatment in the
Hospital's acute inpatient unit beyond the three-day stay.
                                                                                          Page 10 of 11




Michael J. Armstrong 

Office of Inspector General 

November 19,2012 

Page 10 



 FTI found that the record supported the need for inpatient rehabilitation services based on the
 complexity of the rehabilitation services and the need for medical management of the patient's
 other medical comorbidities. The patient experienced an acute right cerebrovascular accident
 that required the services of three therapy disciplines. Prior level of function was independent in
 ambulation and ADLs. The patient's medical conditions related to diabetes, hypertension and
 dysphagia, were managed by the medical staff. The patient subsequently made progress in her
 cognitive, eating, grooming and social cognition function and was able to be discharged to a
 lower level of care for further rehab treatment. FTI noted that a clinical finding of aspiration
 does not necessarily limit a patient's ability to actively participate in a rehab program. Many
 rehab patients experience aspiration and effective medical management prevents clinical
 complications associated with the condition.

 FTI is a leading expert in this field. Its assessment of these cases, as well as the balance of the
 audit sample, should be given significant consideration.

Conclusion

Norwalk Hospital respectfully requests that the OIG revise the Draft Report to eliminate the first
three recommendations for significant refunds and self-audits.           There is no basis for
recommending that the Hospital make financially crippling refunds based solely on a
documentation "checklist" review. In essence, the OIG is recommending to CMS that the
Hospital be reimbursed only $162,656 for all of the IRF services furnished to all of the Medicare
beneficiaries during calendar year 2010. Such a draconian result would not cover even a fraction
of the Hospital's actual costs and expenses for 2010. Even if these patients were admitted to
skilled nursing facilities instead, Medicare would have paid a significant amount in 201 0 for the
care of these patients.

Alternatively, Norwalk Hospital respectfully requests that the OIG revise the first three
recommendations in the Draft Report to recommend that CMS delay recoupment of any
overpayments and that the self-audit of any subsequent years be delayed until the Hospital has
had an opportunity to exhaust its appeal rights through the third level of the Medicare claims
appeal process (the administrative law judge hearing). Without the appeal process, neither the
OIG nor the Hospital (or even CMS for that matter) is able to know conclusively whether each
IRF claim should be reimbursed.
                                                                                 Page 11 of 11




Michael J. Armstrong
Office of Inspector General
November 19, 2012
Page 11


Thank you for the opportunity to review and comment on the Draft Report. We sincerely hope
that you will consider and accept our comments and recommendations.



D ;&JLJf.
Daniel DeBarba, Jr. 

President and Chief Executive Officer 


Enclosure
       OIG's Draft Report
